r40 BECKER GALLAGHER

DONNA

I. WOLF, J.D.

JULIE A. KERSHNER, J.D.

Briefs and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Second Supplemental Brief
for Petitioner in 19-737, James Nathaniel Douse v.
United States of America, et al., were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service to the following parties
listed below, this 18th day of May, 2020:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USD0J.gov
Counsel for Respondents
James Nathaniel Douse
718 Thompson Lane
Bldg 108 Unit 124
Nashville, Tennessee 37204
(615) 848-4415
jamescnet90@yahoo.com
Petitioner Pro Se

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

wwwbeckergallaghercom

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 18, 2020.

ALC

t,k) D16

DOM]a

J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ki

/d9
i

cka0

01)11- io
Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023
•

